No. 19-765

 

IN THE

Supreme Court of the United States

MICHAEL FAUST, in his official capacity as
Director of the Arizona Department of Child Safety,

Petitioner,
v.
B.K., by her next friend Margaret Tinsley, e¢ al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF FOR THE RESPONDENTS IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,918 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 14, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
